              U.S. DEPARTMENT OF ENERGY
DOE/IG-0034




                   OFFICE OF INSPECTOR GENERAL
                   SEMIANNUAL REPORT TO CONGRESS
                          OCTOBER 1, 2003 - MARCH 31, 2004
                                   Department of Energy
                                       Washington, DC 20585




                                          April 29, 2004




The Honorable Spencer Abraham
Secretary
U.S. Department of Energy
Washington, DC 20585

Dear Secretary Abraham:

I am pleased to submit the Office of Inspector General's (OIG) Semiannual Report to Congress.
This Report summarizes significant OIG activities and accomplishments during the 6-month
period ending March 31, 2004.

The Report reflects our continuing commitment to focus OIG efforts on the issues and concerns
most critical to you, the Administration, and the Congress. In particular, it describes OIG
accomplishments in identifying the most significant management challenges facing the
Department.

We look forward to working with you on matters of mutual interest.

                                               Sincerely,



                                               Gregory H. Friedman
                                               Inspector General

Enclosure




                                     Printed with soy ink on recycled paper
Inspector General’s Message....................................................................1

Report on the Department of Energy's
Consolidated Financial Statements ..........................................................3

Management Challenges.........................................................................4

        Contract Administration......................................................................4
        Environmental Cleanup .....................................................................5
        Information Technology......................................................................7
        National Security ................................................................................9
        Project Management .......................................................................10
        Stockpile Stewardship.......................................................................12

Other Significant Accomplishments ........................................................14

        Administrative Safeguards ................................................................14
        Other Significant Work.......................................................................17
        Congressional Responses.................................................................18
        Results ..............................................................................................18
        Qui Tams .........................................................................................20
        Management Referral System..........................................................20
        Intelligence Activities ........................................................................21
        Legislative and Regulatory Review ...................................................21
        Hotline System ..................................................................................22
        Reports Issued ..................................................................................23
        Statistical Information .......................................................................29




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                                         SEMIANNUAL REPORT TO CONGRESS
   I am pleased to submit the Department of Energy (Department) Office of
Inspector General (OIG) Semiannual Report to Congress for the period ending
March 31, 2004. This report, issued in accordance with the provisions of the
                         Inspector General Act of 1978, as amended, represents
                                the OIG's accomplishments in identifying areas of
                                Department operations most vulnerable to waste,
                                fraud and mismanagement.

                                     During this reporting period, the OIG identified and
                                  reported on a number of opportunities to enhance
                                  accountability, accelerate cost savings, and return
                                  hard dollars to the Federal Government. Our reviews
                                  have resulted in the identification of programmatic
                                  economies and efficiencies representing millions of
dollars in savings to the Department and the U.S. taxpayer. Furthermore, all of our
efforts focus on improving the Department's programmatic results. For example,
following our audit on the Recovery of Highly Enriched Uranium Provided to Foreign
Countries, IG-0638, the Secretary directed the Department's National Nuclear
Security Administration to consolidate the U.S. Foreign Research Reactor Spent
Nuclear Fuel Acceptance Program within its nonproliferation
mission. The decision is intended to accelerate and
strengthen the Department's efforts to return
weapons-usable nuclear materials of U.S.-origin back
to the U.S.; will refocus and strengthen the
international campaign to deny terrorists
opportunities to seize nuclear materials; and will
increase the Department's effectiveness in achieving
the reduction and eventual elimination of the use of
weapons-usable materials in civil commerce
worldwide. We believe the Secretary's actions
represent an important initiative that addresses the issues
raised in our audit report.

   We accomplished our mission through employee dedication and by
implementing and executing a comprehensive strategic plan. This plan focused on
core goals relating to issues that have the greatest impact on the Department’s very
diverse portfolio of activities.



U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                             SEMIANNUAL REPORT TO CONGRESS

                                           1
    Highlights of our work during the current reporting period, which are set forth in the
following sections of this report, are organized by management challenge area. As
required by the Reports Consolidation Act of 2000, the OIG annually identifies the most
significant management and performance challenges facing the Department. This
year, the OIG has determined that the most serious
challenges facing the Department are:

       Mission-Related Challenges
       Environmental Cleanup
       National Security
       Stockpile Stewardship

       Internal Control Challenges
       Contract Administration
       Project Management
       Information Technology

                                           Additionally, the OIG has streamlined its
                                        semiannual reporting process by providing
                                        shortened report summaries. Each identified
                                        public report is available in full on our website
                                        www.ig.doe.gov.




   Finally, I would like to express my continued
appreciation to all of the OIG employees for their
commitment and dedication to our mission. On
behalf of the American taxpayers, I thank the OIG
staff for their performance as “agents of positive
change” during this reporting period.




Gregory H. Friedman
Inspector General




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                              SEMIANNUAL REPORT TO CONGRESS

                                           2
Inspector General’s Message....................................................................1

Report on the Department of Energy's
Consolidated Financial Statements ..........................................................3

Management Challenges.........................................................................4

        Contract Administration......................................................................4
        Environmental Cleanup .....................................................................5
        Information Technology......................................................................7
        National Security ................................................................................9
        Project Management .......................................................................10
        Stockpile Stewardship.......................................................................12

Other Significant Accomplishments ........................................................14

        Administrative Safeguards ................................................................14
        Other Significant Work.......................................................................17
        Congressional Responses.................................................................18
        Results ..............................................................................................18
        Qui Tams .........................................................................................20
        Management Referral System..........................................................20
        Intelligence Activities ........................................................................21
        Legislative and Regulatory Review ...................................................21
        Hotline System ..................................................................................22
        Reports Issued ..................................................................................23
        Statistical Information .......................................................................29




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                                         SEMIANNUAL REPORT TO CONGRESS
   I am pleased to submit the Department of Energy (Department) Office of
Inspector General (OIG) Semiannual Report to Congress for the period ending
March 31, 2004. This report, issued in accordance with the provisions of the
                         Inspector General Act of 1978, as amended, represents
                                the OIG's accomplishments in identifying areas of
                                Department operations most vulnerable to waste,
                                fraud and mismanagement.

                                      During this reporting period, the OIG identified and
                                   reported on a number of opportunities to enhance
                                   accountability, accelerate cost savings, and return
                                   hard dollars to the Federal Government. Our reviews
                                   have resulted in the identification of programmatic
                                   economies and efficiencies representing millions of
dollars in savings to the Department and the U. S. taxpayer. Furthermore, all of our
efforts focus on improving the Department's programmatic results. For example,
following our audit on the Recovery of Highly Enriched Uranium Provided to Foreign
Countries, IG-0638, the Secretary directed the Department's National Nuclear
Security Administration to consolidate the U.S. Foreign Research Reactor Spent
Nuclear Fuel Acceptance Program within its nonproliferation
mission. The decision is intended to accelerate and
strengthen the Department's efforts to return
weapons-usable nuclear materials of U.S.-origin back
to the U. S.; will refocus and strengthen the
international campaign to deny terrorists
opportunities to seize nuclear materials; and will
increase the Department's effectiveness in achieving
the reduction and eventual elimination of the use of
weapons-usable materials in civil commerce
worldwide. We believe the Secretary's actions
represent an important initiative that addresses the issues
raised in our audit report.

  We accomplished our mission through employee dedication and by
implementing and executing a comprehensive strategic plan. This plan focused on
core goals relating to issues that have the greatest impact on the Department of
Energy's very diverse portfolio of activities.



U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                             SEMIANNUAL REPORT TO CONGRESS

                                           1
    Highlights of our work during the current reporting period, which are set forth in the
following sections of this report, are organized by management challenge area. As
required by the Reports Consolidation Act of 2000, the OIG annually identifies the most
significant management and performance challenges facing the Department. This
year, the OIG has determined that the most serious
challenges facing the Department are:

       Mission-Related Challenges
       Environmental Cleanup
       National Security
       Stockpile Stewardship

       Internal Control Challenges
       Contract Administration
       Project Management
       Information Technology

                                           Additionally, the OIG has streamlined its
                                        semiannual reporting process by providing
                                        shortened report summaries. Each identified
                                        public report is available in full on our website
                                        www.ig.doe.gov.




   Finally, I would like to express my continued
appreciation to all of the OIG employees for their
commitment and dedication to our mission. On
behalf of the American taxpayers, I thank the OIG
staff for their performance as “agents of positive
change” during this reporting period.




Gregory H. Friedman
Inspector General




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                              SEMIANNUAL REPORT TO CONGRESS

                                           2
REPORT ON THE DEPARTMENT OF ENERGY'S
CONSOLIDATED FINANCIAL STATEMENTS

    This is the fifth consecutive year that the Department received an unqualified
(clean) audit opinion on its consolidated financial statements. The OIG conducted
the audit pursuant to the Government Management and Reform Act of 1994 through
a contract with the accounting firm of KPMG LLP. KPMG concluded that the
consolidated financial statements present fairly, in all material respects, the
Department's financial position as of September 30, 2003, and its net costs, changes
in net position, budgetary resources, reconciliation of net costs to budgetary
obligations, and custodial activities for the year then ended.

    While the audit opinion was unqualified, the examination revealed that two
reportable conditions existed in the Department's system of internal controls:
(1) certain network vulnerabilities and general access control weaknesses could affect
unclassified information system security; and (2) while the Department has made
significant progress in its performance measurement reporting, more remains to be
done to satisfy Office of Management and Budget requirements. These conditions
were also observed during last year's audit.

   To ensure the quality of the audit, the OIG approved the scope of KPMG's
assignment, monitored its work, and reviewed the audit report and related work
papers for compliance with auditing standards. Department management generally
agreed with the audit findings and initiated or agreed to initiate specific corrective
actions. The KPMG audit report and the OIG transmittal memorandum to the
Secretary are included in the Department's Fiscal Year (FY) 2003 Performance and
Accountability Report, DOE/ME-0025. (OAS-FS-04-02)




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                        SEMIANNUAL REPORT TO CONGRESS

                                         3
CENTRAL OFFICE EXPENSES FOR THE THOMAS
JEFFERSON NATIONAL ACCELERATOR FACILITY

    An OIG audit questioned about $4.6 million     Aerial view of Thomas Jefferson
of the $4.8 million paid for home office           National Accelerator Facility
expenses over nearly 3 years to the
contractor that operates the Department's
Thomas Jefferson National Accelerator
Facility. Such charges included
entertainment and alcoholic beverages.
The audit also found that the Department’s
Oak Ridge Operations Office had not
provided adequate financial oversight of
the contractor's operations. (IG-0629)




MANAGEMENT CONTROL WEAKNESSES
OVER SUBCONTRACT ADMINISTRATION
BY THE NATIONAL RENEWABLE ENERGY LABORATORY

   An OIG audit found that the National Renewable Energy Laboratory (NREL) had not
always effectively managed aspects of its subcontract procurement cycle.
Specifically, we observed that:

   !   For 8 of the 24 contracts we reviewed, subcontractor acquired property with
       an original acquisition value of about $1 million could not be located;
   !   Experimental property fabricated by subcontractors valued at about $15
       million had not been included in inventory and was not properly safeguarded;
       and,
   !   NREL had not de-obligated as much as $3 million of unexpended funds that
       may be available, or recovered at least $2.9 million in property associated
       with completed or expired contracts. (OAS-M-04-02)




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                       SEMIANNUAL REPORT TO CONGRESS
                                         4
MANAGEMENT CONTROL WEAKNESSES OVER SUBCONTRACT
ADMINISTRATION AT ARGONNE NATIONAL LABORATORY

   An OIG audit determined that Argonne National Laboratory (Argonne) relied heavily
on sole source procurements without, in many cases, adequately supporting their use,
and did not always adequately inventory property acquired by subcontractors. We
noted that Argonne used sole source awards for 62 percent of its FY-2002 active
contracts over $100,000 and that 50 percent (14 of 28) of sole source contract files
reviewed did not demonstrate a compelling reason for limiting competition.
(OAS-M-04-01)




TRANSURANIC WASTE RETRIEVAL AND
PROCESSING AT THE HANFORD SITE

    An OIG audit determined that the
Department faces significant challenges in
its efforts to retrieve and process
transuranic (TRU) waste at the Hanford Site.
Specifically, as of July 2003, the audit
concluded that:
       (1)   the nearly 10,000 existing
             containers of TRU waste had
             not been retrieved and that
             the Department faced
             substantial technical
             challenges in its retrieval
                                                           TRU Waste Burial Grounds, Hanford
             schedule; and,

       (2)   in total, only 6,700 TRU waste
             containers had been
             processed.
   At the current rate of processing, the audit found that only a little more than half of
the legacy TRU waste will be prepared for shipment by the Department's target date
of 2015. (IG-0624)


U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                          SEMIANNUAL REPORT TO CONGRESS

                                           5
REINDUSTRIALIZATION OF THE EAST TENNESSEE TECHNOLOGY PARK

   An OIG audit disclosed that since the East Tennessee Technology Park
reindustrialization program began, work on the site's most contaminated and unsafe
building has been deferred while buildings with perceived reuse potential have been
cleaned up in an effort to increase commercial tenants. Additionally, the Department
obtained commitments for the reuse of only a small fraction of available space.
(IG-0623)


IMPROVEMENTS POSSIBLE IN THE DEPARTMENT'S
DEPLETED URANIUM HEXAFLUORIDE CONVERSION

    The OIG conducted an audit to determine
whether the Department has implemented an
efficient plan for conversion of its depleted
uranium hexafluoride inventory.

   Our review concluded that the
Department's plan for converting depleted
uranium hexafluoride inventories could be
improved by adding increased production
capacity at the Portsmouth facility. This
increased production would result in 4,500
metric tons of additional material processed
annually, completion of the project nearly 5             Storage yard of depleted
years earlier than planned, and a savings of             uranium hexafluoride cylinders
about $55 million. (IG-0642)



SUBCONTRACTOR REIMBURSES GOVERNMENT FOR UNVERIFIED
CHEMICAL ANALYSIS STUDIES ON CONTAMINATED GROUNDWATER

    An OIG investigation determined that a subcontractor employee, conducting
chemical analysis studies on groundwater contamination at the Paducah Gaseous
Diffusion Plant, submitted reports with no certifiable data to back up the studies. The
employee was subsequently terminated. The Department, in coordination with the
OIG and the Western District of Kentucky United States Attorney's Office, accepted a
$347,076 settlement from the subcontractor for costs associated with the unverified
studies and reports. (I03OR009)



U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                         SEMIANNUAL REPORT TO CONGRESS

                                          6
TWO GUILTY PLEAS AND ONE SENTENCING OF
DEPARTMENT SUBCONTRACTOR EMPLOYEES FOR
TRANSPORTATION OF HAZARDOUS WASTE WITHOUT A MANIFEST

   During the current reporting period, two subcontractor employees pleaded guilty
to violations of 42 USC 6928 (Transportation of Hazardous Waste Without a Manifest).
One employee was sentenced to 5 years’ probation, 300 hours’ community service, a
$100 special assessment, and restitution in the amount of $12,190. Sentencing is
pending for the other subcontractor employee.
  As previously reported, this investigation was conducted in conjunction with the
East Tennessee Environmental Crimes Task Force and has resulted in prior fees, fines,
and penalties against the subcontractor corporation. (I99OR003)




WEAKNESSES IN LAWRENCE LIVERMORE NATIONAL                      Aerial view of
LABORATORY CLASSIFIED COMPUTER AND                             Lawrence Livermore
                                                               National Laboratory
REMOVABLE MEDIA INVENTORY CONTROLS

   The OIG conducted an evaluation of internal controls
over classified computers and classified removable
media at the Lawrence Livermore National Laboratory
(LLNL). Although all materials were accounted for, the
OIG identified certain internal control weaknesses in LLNL’s
administration of its classified computer and classified
removable media inventories. These weaknesses
concerned increased vulnerability to loss, abuse, and theft.
(IG-0628)


WEAKNESSES FOUND IN IMPLEMENTATION OF INDICATIONS, WARNING,
ANALYSIS AND REPORTING CAPABILITY OF CYBER SECURITY INCIDENTS

   Based on prior audit work, the OIG initiated an audit to determine whether the
Department had improved its cyber security incident reporting process and had
sufficient information to manage its network intrusion threat.



U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                        SEMIANNUAL REPORT TO CONGRESS

                                         7
   The audit determined that despite efforts to strengthen policy, overall reporting had
not improved significantly. Specifically, Federal law enforcement officials were
notified of only 20 of 49 successful system intrusions reported to the Department's
Computer Incident Advisory Capability; site personnel did not always preserve
evidence needed to investigate or determine the source of attacks; and, attacks
originating from foreign sources were not always reported to Federal
counterintelligence officials. (IG-0631)



UNITED KINGDOM TEENAGER SENTENCED FOR
HACKING INTO A LABORATORY'S COMPUTER NETWORK

   An unprecedented, joint investigation with the New Scotland Yard Computer Crime
Unit established that a British citizen gained unauthorized access to 17 Government-
owned computers at the Department's Fermi National Accelerator Laboratory. The
investigation determined that the hacker uploaded and shared copyrighted
computer programs, motion pictures, and MP3 music files to the Government-owned
computers. None of the computers were classified.

   The United Kingdom's Magistrate Court accepted the case for criminal
prosecution. The subject of the investigation pleaded guilty to violating the United
Kingdom's Computer Misuse Act of 1990. The subject was sentenced to 200 hours of
community service. (I02TC024)



UNAUTHORIZED INTRUDER COMPROMISES
GOVERNMENT DESKTOP COMPUTER

   An OIG investigation determined that an unauthorized cyber intruder
compromised a Government-owned desktop issued to a contractor employee at
LLNL. The intruder was found to have altered data and system files on the unclassified
computer. An Administrative Report to Management made recommendations
regarding cyber security and computer systems configuration management policy at
LLNL. In response, LLNL has implemented a corrective action plan to address the
recommendations. (I03TC006)




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                         SEMIANNUAL REPORT TO CONGRESS

                                         8
REPORTING OF SECURITY INCIDENTS AT LLNL

    An OIG inspection concluded that LLNL                         Simulated training
did not have adequate internal controls to                                 exercise
ensure that: (1) security incidents involving
missing master keys and Tesa cards were
reported within required timeframes, and
(2) timely follow-up actions were taken to
identify and address any potential security
vulnerabilities resulting from the incidents.
(IG-0625)


WEAKNESSES IN THE DEPARTMENT'S
BASIC PROTECTIVE FORCE
TRAINING PROGRAM

    An OIG review determined that the
Department’s core basic training curriculum
for its protective force officers had been
applied inconsistently throughout the
complex. At 10 of the 12 sites reviewed, significant modifications to the
Department's core curriculum had been made. For example, at one site, about
40 percent of the required 320 hours of basic security police officer training had
been eliminated. Because facilities were not required to report such departures to
Headquarters officials, there was no effective way to evaluate the impact of these
actions on the security interests of the Department. (IG-0641)


PROTECTIVE FORCE PERFORMANCE TEST
IMPROPRIETIES AT OAK RIDGE FACILITY

   An OIG inspection found a compromise of controlled test sensitive information
associated with a June 26, 2003, protective force performance test at the
Department's Y-12 facility. The compromise occurred when certain protective




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                       SEMIANNUAL REPORT TO CONGRESS

                                           9
force personnel were given advance access to computer simulations of the test. In
our judgment, the test results were tainted. Further, we were provided compelling
testimony that there had been a pattern of actions by site security personnel going
back to the mid-1980's that may have negatively affected the reliability of
performance testing at the Department's Oak Ridge facilities. (IG-0636)


WEAKNESSES IN SAFEGUARDS OVER SENSITIVE TECHNOLOGIES

   An OIG audit of safeguards over sensitive technologies determined that, at Sandia,
Los Alamos, and Oak Ridge National Laboratories, controls over sensitive technologies
had not been employed in all instances. The audit found, for example, foreign
nationals were being assigned to potentially sensitive projects without authorization.
(IG-0635)




                                                       Site overview at
                                                       Portsmouth Gaseous Diffusion Plant
COST INCREASES IN THE COLD
STANDBY PROGRAM AT THE
PORTSMOUTH GASEOUS DIFFUSION PLANT


    The OIG conducted an audit that concluded
that the Department had not clearly defined the
termination point of the Cold Standby Program
and that total program costs had almost
doubled (increase of $189 million) from initial
project estimates. The review determined that the Department
had not: formally updated the program mission requirements; assigned responsibility
for the program to a single organization; executed the most cost effective
procurement strategy; or developed a programmatic baseline. (IG-0634)




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                       SEMIANNUAL REPORT TO CONGRESS

                                        10
PROJECT MANAGEMENT CONTROLS IN THE REESTABLISHMENT
OF ENRICHED URANIUM OPERATIONS AT THE Y-12 COMPLEX

   A review of the National Nuclear Security Administration's (NNSA) enriched uranium
operations at the Y-12 National Security Complex showed that several key activities,
including wet chemistry, oxide conversion, and salvage treatment, necessary for
resumption of enrichment, will not be operational until at least July 2004, more than 5
years later than originally planned. It was further found that the estimated cost of this
project has grown to nearly three times the original estimate to approximately $400
million. (IG-0640)


IMPROVEMENTS NEEDED IN THE DESIGN OF THE URANIUM
STORAGE FACILITY AT THE Y-12 NATIONAL SECURITY COMPLEX

   The OIG conducted an audit to evaluate whether the current design of the highly
enriched uranium materials facility at the Y-12 National Security Complex would
achieve intended objectives. The review determined that the facility’s current design
would not meet management's expectations. Specifically, this design would result in:

    !   Higher life-cycle costs than the original design;
    !   Personnel security requirements that would be greater than the previous
        design; and,
    !   More complex construction requirements that may add cost and time to the
        project schedule.

  Overall, the Department risks spending at least $25 million more than necessary to
construct this storage facility. (IG-0643)
                                                       Equipment yard at Bonneville Power
                                                       Administration’s Celilo Converter Station
ELECTRICITY TRANSMISSION
SCHEDULING AT THE
BONNEVILLE POWER ADMINISTRATION

  An OIG audit determined that the Bonneville
Power Administration's (BPA) scheduling system
does not fully meet present and future




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                          SEMIANNUAL REPORT TO CONGRESS

                                          11
transmission needs. For example, a system that was expected to be fully
operational by June 2000, cannot yet meet the need for rapid, reliable, and
accurate electronic tagging and scheduling of a large volume of complex
transmissions. (IG-0637)



THE MCNEIL BIOMASS PROJECT

   An audit determined that although the Department had made policy changes
designed to improve the management of energy-related financial assistance
awards, its oversight of the McNeil Biomass Project (McNeil) was inadequate.
Specifically, in FY 2002, the Department continued to fund McNeil even though
there was little or no progress in meeting annual programmatic performance
objectives. (IG-0630)




MODERNIZATION OF TRITIUM
REQUIREMENTS SYSTEMS

     The OIG conducted an audit to determine
whether the NNSA's efforts to modernize the       Aerial view of tritium facilities at
                                                  Savannah River
Tritium Simulation System and related systems
would result in accurate tritium requirement
estimates.

   The audit determined that even after
modernization, the new system would not
account for tritium lost during processing and
would duplicate modeling capabilities that
were already available in separate systems.
The OIG report on this matter recommended
NNSA strengthen management controls over the
project and improve the accuracy of its tritium
requirements model. (IG-0632)




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                       SEMIANNUAL REPORT TO CONGRESS

                                       12
RECOVERY OF HIGHLY ENRICHED URANIUM
PROVIDED TO FOREIGN COUNTRIES

    In May 1996, in an effort to reduce the threat of nuclear weapons proliferation,
the Department initiated a program to recover foreign research reactor spent fuel
containing highly enriched uranium (HEU) produced in the United States. An OIG
audit of this program determined that as of August 2003, the Department was likely
to recover only about half of the HEU planned to be recovered. Moreover, there
was no effort to recover additional HEU dispersed to foreign countries that was not
included in the program. (IG-0638)




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                       SEMIANNUAL REPORT TO CONGRESS

                                        13
DEPARTMENT RECOUPS $1.9 MILLION AS A RESULT OF
$3.9 MILLION CIVIL SETTLEMENT FOR GOVERNMENT MISCHARGING AT LLNL

   The U.S. Department of Justice, Civil Division, entered into a settlement agreement
with the University of California, as operator of the Department's LLNL, in the amount of
$3,897,366 to settle a Civil False Claim Action for mischarging at LLNL. One-half of
the amount paid, $1,948,683, was credited back to the Department. (I99LL007)


CIVIL JUDGMENT AGAINST FORMER                               Technician holding
DEPARTMENT SUBCONTRACTOR FOR FILING                         table shale type
                                                            mineral in her left
FALSE COAL TEST INVOICES AND REPORTS                        hand and bituminous
                                                            coal in her right
    During the current reporting period, a civil judgment
in the amount of $2,914,589 was rendered against
one Department subcontractor and its owner as a
result of a joint investigation by the OIG Office of
Investigations and other Federal law enforcement
agencies.

   The previously reported investigation determined
that two subcontractor officials and their respective
companies knowingly submitted false claims to the
Departments of Energy and Defense in the form of
coal test reports and invoices. (I94SR018)


SUBCONTRACTOR EMPLOYEE FORFEITS AUTOMOBILE FOR THEFT VIOLATION

   An OIG investigation resulted in a subcontractor employee entering into a Pretrial
Diversion Agreement for violating 18 USC 641 (Theft of Government Property). The
investigation determined that the subcontractor employee placed a large number of
overpriced computer part orders on behalf of LLNL; and in each order, the vendor
provided contest entry forms with a chance to win a Chrysler PT Cruiser. Through
these purchases, the subcontractor employee submitted the forms and won the
automobile, valued at approximately $20,000. Administrative forfeiture resulted in
recovery of the PT Cruiser and the subcontractor employee resigned from his position.
(I02LL004)

U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                          SEMIANNUAL REPORT TO CONGRESS

                                          14
CONTROL DEFICIENCIES IDENTIFIED IN Y-12'S RADIOACTIVE
CONTAMINATION RECORDS AND THE SAFEGUARD OF PRECIOUS METALS

    An OIG investigation identified internal control weaknesses regarding the recording
of radioactive contamination measurements and the safeguard of precious metals
at the NNSA's Y-12 facility in Oak Ridge, Tennessee. In response to an Administrative
Report to Management, the prime contractor at Y-12 was tasked with performing a
detailed audit of the internal controls for the receipt, transfer, storage, shipment,
accountability and protection of precious metals. (I03OR005)



INDIVIDUAL SENTENCED FOR THEFT OF ALUMINUM FROM BPA SUBSTATION

   A joint OIG investigation with the Bureau of Alcohol,
Tobacco, Firearms, and Explosives (BATF&E) and local
law enforcement determined that a private citizen
stole in excess of 20,000 pounds of aluminum
conductor from a BPA substation in Linn County,
Oregon. The individual pleaded guilty to one count
of 18 USC 641 (Theft of Government Property); was
sentenced to 24 months' incarceration, 3 years'                          Bonneville Power
probation; and was ordered to pay restitution in the                       Administration
amount of $32,734.44. (I03RL005)                               Substation, Dalles, Oregon



TWO INDIVIDUALS INDICTED AND ONE SENTENCED
FOR THEFT OF INSULATED COPPER WIRE FROM BPA SUBSTATION

     An OIG investigation determined that two individuals stole approximately 2,000
feet of insulated copper valued at $14,000 from the BPA Oregon City Substation. The
first subject was indicted and pleaded guilty to a one count violation of first degree
theft (Oregon Revised Statute 164.055). He was also sentenced to 13 months’
incarceration, 1 year of probation, $2,500 in restitution, and fines and assessments
totaling $635. The second subject was indicted and an arrest warrant has been
issued for a one count violation of first degree theft (Oregon Revised Statute 164.055).
(I03RL021)




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                         SEMIANNUAL REPORT TO CONGRESS

                                          15
FORMER LABORATORY EMPLOYEE AGREES TO
CIVIL SETTLEMENT FOR FRAUDULENT EXPENSES

    As part of a civil settlement agreement, a former Pacific Northwest National
Laboratory employee reimbursed the Government $10,425.43. The settlement
followed an OIG investigation which determined that the subject improperly charged
labor while on personal travel, filed a fraudulent travel voucher, and misused a
Government-assigned cellular telephone and toll-free service number for personal
use. The subject resigned during the course of the ongoing investigation. (I03RL015)



INDIVIDUAL SENTENCED FOR THEFT OF PROTECTIVE FORCE UNIFORMS

   An OIG joint investigation with a local police
department determined that an individual, not
associated with the Department or its
contractors, stole Department contractor
protective force uniforms valued at $1,500
from a dry cleaner. The investigation
resulted in an admission by the individual
and recovery of the uniforms. The individual
subsequently entered a guilty plea to a
violation of Tennessee Code 39-14-103 (Theft
of Property, Class D Felony) and was
sentenced to 90 days’ incarceration and 4
years’ supervised probation. (I04OR001)


FORMER CONTRACTOR EMPLOYEE
SENTENCED FOR ILLEGAL POSSESSION OF FIREARMS

    Pursuant to a search warrant executed in an OIG joint investigation with the Federal
Bureau of Investigation (FBI) and the BATF&E focusing on alleged theft of classified
materials, a former contractor employee was found to illegally possess firearms at his
residence. The individual pleaded guilty to a felony count violation of 18 USC 922
(g)(4) (Possession of a Firearm by a Prohibited Person) and was sentenced to 5 years’
supervised probation. He was ordered to pay a $100 special assessment fee and to
forfeit four seized firearms. (I02IF009)




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                         SEMIANNUAL REPORT TO CONGRESS

                                          16
CONTRACTOR PROCUREMENT OFFICIAL SENTENCED FOR BRIBERY

   During the current reporting period, a Department contractor procurement official
was sentenced to 3 years’ probation, 6 months’ home confinement, ordered to pay
$120,000 in restitution, a $50,000 criminal fine, and a $100 special assessment fee for
violation of 18 USC 201 (b)(2)(A) (Bribery of a Public Official). The procurement official
was also terminated from his position at the Lawrence Berkley National Laboratory.

    This previously reported joint investigation with the FBI determined that a contractor
procurement official received approximately $120,000 from two Laboratory vendors
in return for providing the vendors with confidential bid information. (I02LL002)


SECOND INDIVIDUAL ENTERS PLEA AND IS SENTENCED IN CONNECTION
WITH COUNTERFEIT DEPARTMENT OF ENERGY SECURITY BADGES

   During the current reporting period, an individual pleaded guilty to a three count
violation of 18 USC 1028 (a)(6) (Fraud and Related Activity in Connection with
identification Documents); was sentenced to 16 months’ incarceration, 3 years’
supervised release; and was ordered to pay $200.

   This previously reported joint investigation with the FBI involved the theft and forgery
of Department security badges to facilitate the cashing of fraudulent checks.
(I02AL013)




IMPROVEMENTS NEEDED IN THE DEPARTMENT'S AUDIT RESOLUTION PROCESS

   An OIG review of the Department's audit resolution process determined that
although the Department had made efforts to improve the effectiveness of this
process:

   ·   Target dates for completion of corrective actions had not been established for
        44 percent of the 104 recommendations reviewed;
   ·   Where target dates were established, 57 percent of the corrective actions
        taken exceeded closure milestones;



U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                           SEMIANNUAL REPORT TO CONGRESS

                                           17
   · Recommendations were closed even though corrective actions had not
     been taken; and,
   · Potential savings of about $26 million were foregone because of delays
     in implementation. (IG-0639)


PERFORMANCE MANAGEMENT WEAKNESSES AT
THE FEDERAL ENERGY REGULATORY COMMISSION

   The OIG conducted an audit to determine whether the Federal Energy Regulatory
Commission (FERC) had established appropriate performance measures for its
significant programs and whether it had met its annual performance goals.

   The audit found that: in a few key activities, including investigations of potential
market abuses, FERC did not have performance measures; measures did not always
directly address program activities performance; performance measures in the
competitive markets area were generally not objective, quantifiable, or oriented
towards outcomes or outputs; and, in some cases, management could not
demonstrate that it had actually achieved reported results.

   The performance management system did not reach its full potential because
FERC had not promulgated necessary guidance. In addition, a process to document
and validate reported results had not been implemented. (IG-0627)




   During this reporting period, the OIG received 9 requests for information from
Congress, provided information in 14 instances to Congress, briefed Committee staff
on 10 occasions, and testified at 1 hearing.



RESULTS
HIGHLIGHTS OF POSITIVE RESULTS BASED
ON PRIOR OFFICE OF INSPECTOR GENERAL WORK

   During the current reporting period, the Department took the following positive
actions as a result of prior OIG work. Consistent with our findings and
recommendations in:


U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                         SEMIANNUAL REPORT TO CONGRESS

                                          18
   !
   !   Our report entitled, “Oversight Funds Provided to Local Governments in the
       State of Nevada,” DOE/IG-0600, the Office of Civilian Radioactive Waste
       Management agreed with our report finding of questioned costs in the
       amount of $2,138,273 and has withheld $1,526,974 from the appropriate
       local jurisdictions. Management also plans to withhold the remaining amount
       from future direct payments.
   !
   !   Our report entitled, “Inspection of Department of Energy Fresh Pursuit Policies
       and Practices,” (U) IG-0557, LLNL conducted a field exercise with local law
       enforcement personnel that was the culmination of months of pre-
       coordination sessions, table top exercises, and significant amounts of shared
       training experiences. Improved communication between the organizations
       was identified as the area of most improvement that resulted from the
       exercise.
   !
   !   Our report entitled, “Oversight of Shock Sensitive Chemicals at the
       Department's Ames Laboratory,” IG-0615, the Department's Office of Safety
       and Health published a safety notice, for distribution throughout the
       Department, that provides specific guidance regarding the definition of shock
       sensitive chemicals, tips to control safety hazards, and strategies to improve
       shock sensitive chemical management, including acquisition control, usage,
       storage, tracking, training, and disposal.
   !
   !   Our report entitled, “The Department's Unclassified Cyber Security Program-
       2003,” IG-0620, the Office of the Chief Information Officer (CIO) has taken
       steps to improve identification, tracking, and correcting cyber security
       weaknesses. The CIO requested that program offices ensure that all cyber
       security weaknesses are identified and tracked in the Department's Plan of
       Action and Milestone (POA&M) database. The CIO has also issued instructions
       that offices provide data on the extent to which they verify the accuracy of all
       cyber security weaknesses reported as closed in the POA&M.
   !
   !   Our report entitled, “Audit of Princeton University's Employee Benefit Costs for
       Princeton Plasma Physics Laboratory Contract DE-AC02-76CH03073 Fiscal
       Years 1996 to 2002,” OAS-FC-04-01, the Department recovered unallowable
       employee benefit costs of $37,591. The contracting officer and the
       contractor agreed to this resolution on March 11, 2004.
   !
   !   Our audit entitled, “Power Marketing Administration Infrastructure Protection,”
       OAS-B-03-01, the Administrators of the Western and Southwestern Power
       Administrations have begun to take the necessary actions to analyze the
       vulnerabilities of their critical assets and to use those analyses to make
       changes in how the assets are protected.




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                         SEMIANNUAL REPORT TO CONGRESS

                                          19
   !   Our audit entitled, “Transfer of Excess Personal Property from the Nevada Test
       Site to the Community Reuse Organization,” DOE/IG-0589, the Nevada Site
       Office has stopped transferring excess property to the Community Reuse
       Organization. In addition, the NNSA is incorporating the Department's new
       guidelines, including a revenue sharing provision into a memorandum of
       understanding with the Community Reuse Organization.




                                       Did you know?
   Since 1996, the OIG has
been instrumental in working           The False Claims Act (Act) prohibits any person
with the Department of Justice         from “knowingly” presenting “a false or
(DOJ) in Qui Tam cases. The            fraudulent claim for payment or approval” to the
OIG is currently working with          Federal Government. The Act authorizes
the DOJ on 22 Qui Tam                  individual citizens to bring private suits, referred
lawsuits involving alleged             to as Qui Tam actions, to enforce the Act on
fraud against the                      behalf of the Government.
Government in the amount of
approximately $215 million.




   The OIG operates an extensive Management Referral System. Under this system,
selected matters received through the OIG Hotline or other sources are referred to
the appropriate Department manager or other Government agency for review and
appropriate action.

    The OIG referred 98 complaints to Department management and other
Government agencies during this reporting period and specifically requested
Department management to respond concerning the actions taken on 36 of these
complaints. Otherwise, Department management is asked to respond if it develops
information or takes action that it believes should be reported. The following
management responses demonstrate management's use of OIG information to
stimulate positive change or to take decisive action:




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                            SEMIANNUAL REPORT TO CONGRESS

                                         20
   !
   !   The OIG referred to management an allegation that employees at a
       Department laboratory were using Government computers to download and
       share pornography from the Internet. The Department contractor initiated an
       investigation that resulted in the termination of two individuals, nine suspensions
       without pay, and four written reprimands.
   !
   !   The OIG referred to management an allegation that a contractor at one of the
       Department's sites had inappropriately calibrated its radiation scanners. The
       relevant program office launched an independent investigation into the
       matter and found deficiencies in technical documentation, the training and
       qualification of radiological control technicians, and the performance of
       radiological surveys. The contractor took action to remedy the deficiencies
       and developed a corrective action plan so that the deficiencies do not
       reoccur.




   The OIG issued one quarterly report pursuant to Executive Order 12863, “President's
Foreign Intelligence Advisory Board.” The Order requires the Inspectors General of the
Intelligence Community to report to the Oversight Board concerning intelligence
activities the Inspectors General have reason to believe may be unlawful or contrary to
Executive order or Presidential directive. No intelligence activities were identified that
were contrary to Executive or Presidential directive.




   The Inspector General Act of 1978, as amended, requires the OIG to review and
comment upon legislation and regulations relating to Department programs and to
make recommendations concerning the impact of such legislation or regulations on
departmental economy and efficiency. The OIG coordinated and reviewed 38
legislative and regulatory items during the reporting period.




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                          SEMIANNUAL REPORT TO CONGRESS

                                          21
   The OIG operates a Hotline System to facilitate the reporting of allegations involving
the programs and activities under the auspices of the Department. During the
reporting period, the Hotline processed 516 complaints.




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                           SEMIANNUAL REPORT TO CONGRESS

                                          22
REPORT                                         DATE OF                  QUESTIONED
NUMBER               TITLE                      ISSUE      SAVINGS        COSTS
IG-0623   Reindustrialization of the East      10-14-03   $25,800,000    $534,000
          Tennessee Technology Park

IG-0624   Transuranic Waste Retrieval and      10-23-03
          Processing at the Hanford Site

IG-0626   Management Challenges                11-12-03
          at the Department of Energy

IG-0627   Federal Energy Regulatory            11-24-03
          Commission’s Performance
          Managment

IG-0629   Central Office Expenses              12-08-03                 $4,621,619
          for the Thomas Jefferson
          National Accelerator Facility

IG-0630   The McNeil Biomass Project           12-11-03                 $2,000,000

IG-0631   Implementation of Indica-            12-12-03
          tions, Warning, Analysis and
          Reporting Capability

IG-0632   Modernization of Tritium             12-16-03     $650,000
          Requirements Systems
IG-0634   Cold Standby Program at              12-22-03   $62,000,000
          the Portsmouth Gaseous
          Diffusion Plant

IG-0635   Safeguards Over Sensitive            01-13-04
          Technology




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                         SEMIANNUAL REPORT TO CONGRESS

                                          23
 REPORT                                        DATE OF                  QUESTIONED
 NUMBER               TITLE                     ISSUE      SAVINGS        COSTS

 IG-0637   Electricity Transmission            02-04-04
           Scheduling at the Bonneville
           Power Administration
 IG-0638   Recovery of Highly Enriched         02-09-04
           Uranium Produced in the
           U.S. and Dispersed to
           Foreign Countries
 IG-0639   The Department's Audit              02-17-04
           Resolution Process
 IG-0640   Reestablishment of Enriched         02-24-04
           Uranium Operations at the
           Y-12 National Security Complex
 IG-0641   The Department’s Basic            03-12-04
           Protective Force Training Program
 IG-0642   Depleted Uranium                    03-18-04   $55,000,000
           Hexafluoride Conversion
 IG-0643   Design of the Uranium               03-19-04   $28,600,000
           Storage Facility at the Y-12
           National Security Complex
 OAS-M-    Management Controls Over            03-12-04
 04-01     Subcontract Administration
           at Argonne National Laboratory
 OAS-M-    Management Controls Over            03-19-04   $24,000,000
 04-02     Subcontract Administration
           by the National Renewable
           Energy Laboratory
 OAS-L-    Resolution of Safety                10-03-03
 04-01     Deficiencies
 OAS-L-    Waste Pits and Silos                10-16-03
 04-02     Remediation at the
           Fernald Closure Project




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                         SEMIANNUAL REPORT TO CONGRESS

                                          24
 REPORT                                       DATE OF                QUESTIONED
 NUMBER                TITLE                   ISSUE     SAVINGS       COSTS
 OAS-L-    Accelerated Remediation            11-04-03
 04-03     of Tank Waste at Hanford
 OAS-L-    U.S. Large Hadron Collider         11-07-03
 04-04     Program
 OAS-L-    Controls Over Expenditures         11-20-03    $887,700
 04-05     Within the Office of Secure
           Transportation
 OAS-L-    Federal Managers' Financial        12-05-03
 04-06     Integrity Act Audit Report
 OAS-L-    Facility Contractor                12-05-03
 04-07     Employee Assignments by
           Energy Efficiency and
           Renewable Energy
 OAS-L-    Maintenance Activities at          01-22-04
 04-08     the Y-12 National Security
           Complex
 OAS-L-    Department of Energy's             01-21-04
 04-09     Implementation of the
           Competitive Sourcing
           Initiative
 OAS-L-    Safeguards and Security            01-30-04
 04-10     Program at the Rocky Flats
           Environmental Technology Site
 OAS-L-    Requests for Equitable             03-17-04
 04-11     Adjustment at the Rocky
           Flats Environmental
           Technology Site
 OAS-L-    Consolidation of Hanford’s         03-26-04
 04-12     Surplus Plutonium-Bearing
           Material




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                        SEMIANNUAL REPORT TO CONGRESS

                                         25
 REPORT                                         DATE OF               QUESTIONED
 NUMBER               TITLE                      ISSUE    SAVINGS       COSTS

 OAS-V-    Assessment of Changes to            11-12-03                $200,500
 04-01     the Internal Control
           Structure and Their Impact
           on the Allowability of Costs
           Claimed by and
           Reimbursed to BWXT Y-12,
           LLC Under Department of
           Energy Contract No.
           DE-AC05-00OR22800


 OAS-V-    Assessment of Changes to       12-10-03                     $681,252
 04-02     the Internal Control Structure
           and Their Impact on the
           Allowability of Costs Claimed
           by and Reimbursed to
           Lawrence Livermore National
           Laboratory Under Department
           of Energy Contract No. W-7405-
           ENG-48


 OAS-V-    Assessment of Changes to the 03-02-04                     $18,093,195
 04-03     Internal Control Structure and
           Their Impact on the Allowability
           of Costs Claimed by and
           Reimbursed to Rocketdyne
           Propulsion and Power, Energy
           Technology Engineering Under
           Department of Energy Contract
           No. DE-AC03-76SF00700

 OAS-FC-   Princeton University's Employee     10-06-03                $105,865
 04-01     Benefit Costs for Princeton
           Plasma Physics Laboratory
           Contract No. DE-AC02-
           76CH03073 Fiscal Years
           1996 to 2002



U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                         SEMIANNUAL REPORT TO CONGRESS

                                          26
 REPORT                                      DATE OF               QUESTIONED
 NUMBER               TITLE                   ISSUE    SAVINGS       COSTS

 OAS-FC-   Interim Audit of Thomas          10-14-03              $4,621,619
 04-02     Jefferson National Accelerator
           Facility Costs Claimed Under
           Contract DE-AC05-84ER40150
           for Fiscal Years 2000 to 2002


 OAS-FS-   Information Technology          11-03-03
 04-01     Management Letter on the
           Audit of the Department of
           Energy's Consolidated Financial
           Statements for Fiscal Year 2003

 OAS-FS-   The Department of Energy's       12-05-03
 04-02     Consolidated Financial
           Statements

 OAS-FS-   Management Letter on the         02-09-04
 04-03     Audit of the Department of
           Energy's Consolidated
           Financial Statements for
           Fiscal Year 2003

 OAS-FS-   Federal Energy Regulatory     02-18-04
 04-04     Commission's Fiscal Year 2003
           Financial Statement Audit


 OAS-FS-   Department of Energy Isotope 03-05-04
 04-05     Program's Fiscal Year 2002
           Financial Statement Audit




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                      SEMIANNUAL REPORT TO CONGRESS

                                      27
 REPORT                                                                 DATE OF
 NUMBER                                 TITLE                            ISSUE

  IG-0625     Inspection Report on “Reporting of Security               11-04-03
              Incidents at the Lawrence Livermore National
              Laboratory”

  IG-0628     Inspection Report on “Internal Controls Over              12-04-03
              Classified Computers and Classified Removable
              Media at the Lawrence Livermore National Laboratory”

  IG-0633     Inspection Report on “The Security of Uranium             12-18-03
              Hexafluoride at the East Tennessee Technology Park (U)”

  IG-0636     Inspection Report on “Protective Force Performance Test   01-23-04
              Improprieties”


*Does not include non-public reports.




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                           SEMIANNUAL REPORT TO CONGRESS

                                          28
 The following table shows the total number of contract audit reports, and the total
              dollar value of questioned costs and unsupported costs.


                                       TOTAL          QUESTIONED       UNSUPPORTED
                                      NUMBER            COSTS             COSTS
Those issued before the reporting
period for which no management           4          $4,436,951           $84,241
decision has been made


Those issued during the reporting
period                                   0                $0                $0


Those for which a management
decision was made during the             1          $1,257,530              $0
reporting period


Value of disallowed costs                                $0                 $0


Value of costs not disallowed                       $1,257,530              $0


Those for which a management                                                $0
                                         0               $0
decision is not required


Those for which no management
decision had been made at the
end of the reporting period
                                         3          $3,179,421           $84,241




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                         SEMIANNUAL REPORT TO CONGRESS

                                        29
                              TOTAL    QUESTIONED       UNSUPPORTED      TOTAL
                             NUMBER      COSTS             COSTS        SAVINGS

Those issued before the
                              10      $3,700,287,284    $70,113,550   $3,770,400,834
reporting period for which
no management decision
has been made

Those issued during the
                              41       $227,795,750         $0        $227,795,750
reporting period

Those for which a
management decision           24                            $0        $336,602,555
                                       $336,602,555
was made during the
reporting period

Agreed to by
                                       $152,000,000         $0        $152,000,000
management

Not agreed to by
                                             $0             $0             $0
management

Those for which a
                              13             $0             $0             $0
management decision is
not required

Those for which no
management decision           14      $3,776,083,034    $70,113,550   $3,846,196,584
had been made at the
end of the reporting
period




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                            SEMIANNUAL REPORT TO CONGRESS

                                        30
    The following are audit reports issued before the beginning of the reporting period
for which no management decisions had been made by the end of the reporting
period. The reasons management decisions had not been made and the estimated
dates (where available) for achieving management decisions are also included.
These audit reports are over 6 months old without a management decision. The
Department has a system in place which tracks audit reports and management
decisions. Its purpose is to ensure that recommendations and corrective actions
indicated by audit agencies and agreed to by management are addressed and
effected as efficiently and expeditiously as possible.

   The Contracting Officers have not yet made decisions on the following contract
reports. The reasons for not doing so included: (1) the delaying of settlement of final
costs questioned in audits pending completion of review of work papers; (2)
voluminous additional records; (3) additional work by the Defense Contract Audit
Agency; and (4) completion of certain legal and contractual investigations.

       WR-C-95-01
       Independent Final Audit of Contract No. DE-AC34-RIRF00025,
       July 26, 1990, to March 31, 1993, Wackenhut Services, Inc.,
       Golden, Colorado. March 14, 1999
       (Estimated date of closure: December 31, 2004)

       ER-C-97-01
       Report on Interim Audit of Costs Incurred Under Contract No.
       DE-AC24-92OR219721 from October 1, 1994, to September 30, 1995,
       Fernald Environmental Restoration Management Corporation, Fernald,
       Ohio, December 20, 1996
       (Estimated date of closure: December 31, 2004)

       OAS-C-03-01
       Final Audit of Princeton University's Costs Claimed for National Aeronautics
       and Space Administration Contract NAS5-96021, November 18, 2002
       (Estimated date of closure: June 30, 2004)

Additional time was necessary to develop management decisions for the following
reports. Further explanations for the delays follow each audit report.




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                           SEMIANNUAL REPORT TO CONGRESS

                                         31
      CR-B-99-02
      Management of Unneeded Material and Chemicals,
      September 30, 1999

      Implementation/action plan and Management Decision brief to be provided
      to the Under Secretary for Energy, Science and Environment and the Under
      Secretary for Nuclear Security/Administrator for National Security
      Administration by June 30, 2004.

      IG-0540
      Advanced Radioisotope Power Systems Program,
      January 14, 2002

      The finalization of the Management Decision is pending the resolution of
      complex issues. This is expected to occur by April 30, 2004.

      IG-0545
      Cyber-Related Critical Infrastructure Identification and Protection Measures,
      March 20, 2002

      The finalization of the Management Decision on this report with mandatory
      concurrence will be on April 2, 2004.

      IG-0565
      Salt Processing Project at the Savannah River Site, August 27, 2002

      The finalization of the management decision on this report is pending the
      resolution of one outstanding legal issue. This should occur by December 31,
      2004.

      IG-0600
      Oversight Funds Provided to Local Governments in the State of Nevada,
      May 23, 2003

      The finalization of the management decision on this report is pending the
      resolution of legal issues. This should occur by December 31, 2004.




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                         SEMIANNUAL REPORT TO CONGRESS

                                       32
       IG-0608
       The Department of Energy's Spent Nuclear Fuel Canister and Transportation
       Casks,
       June 20, 2003

       The finalization of the management decision on this report is awaiting review
       and mandatory concurrence by the necessary Departmental Element. It is
       estimated that this will occur by June 30, 2004.

       IG-0618
       Savannah River Site's Waste Solidification Building,
       September 4, 2003

       The finalization of the management decision on this report is being reviewed
       by the necessary Department Elements. This should occur by May 31, 2004.

       IG-0619
       The Security Afforded Selected Tritium Reservoir Shipments (U),
       September 22, 2003

       The finalization of the management decision on this report is pending the
       resolution of a complex issue. This should occur by May 31, 2004.


MANAGEMENT DECISIONS WHERE FINAL ACTION HAS NOT BEEN
COMPLETED WITHIN 12 MONTHS FROM THE AUDIT REPORTS DATE OF ISSUANCE

   The Department is currently revising its Audit Resolution and Follow-up program to
provide for a more efficient and effective management review process. These
revisions are designed to enhance the expeditious resolution of audit report findings
and recommendations. Departmental officials and the Office of the Inspector
General are continuing to work closely to ensure final action on management
decisions are completed pursuant to section 5(a)(3) of the Inspector General Act of
1978 (5 USC App. 3 et. seq.).




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                            SEMIANNUAL REPORT TO CONGRESS

                                          33
Investigations open at the start of this reporting period                           240
Investigations opened during this reporting period                                   46
Investigations closed during this reporting period                                   62
Investigations open at the end of this reporting period                             224
Qui Tam investigations opened                                                         1
Total open Qui Tam investigations as of 03/31/04                                     22
Multi-agency task force investigations opened                                        11
Total open multi-agency task force investigations as of 03/31/04                     86
Investigative reports to prosecutors and Department management                 14
Recommendations to management for positive change and other actions            28
Administrative discipline and other management actions                         17
Suspensions/Debarment                                                           9
Investigations referred for prosecution                                        18
Accepted*                                                                      18
Indictments                                                                     1
Criminal convictions                                                            6
Pretrial diversions                                                             4
Civil actions                                                                   4
Fines, settlements, recoveries**                                    $7,479,559.09

*Some of the Investigations accepted during the 6-month period were referred for
 prosecution during a previous reporting period.

**Some of the money collected was the result of task force investigations.




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                                 SEMIANNUAL REPORT TO CONGRESS

                                                34
Inspections open at the start of this reporting period                             63
Inspections opened during this reporting period                                    15
Inspections closed during this reporting period                                    11
Inspections open at the end of this reporting period                               67
Reports issued (includes non-public reports)                                        9
Inspection Recommendations
   Accepted this reporting period                                                  1924



   Implemented this reporting period                                               24
Complaints referred to Department management/others                                98
   Referrals to Department management requesting a response for                    36
   OIG evaluation




  Hotline calls, e-mails, letters, and other complaints                           516
  Hotline calls, e-mails, letters, and other complaints predicated                185
  Unresolved Hotline predications from previous reporting periods                  17
     Total Hotline predications                                                   202
  Hotline predications transferred to the Management Referral System              111
  Hotline predications closed based upon preliminary OIG activity                  81
  Hotline predications pending disposition                                         10
     Total predications processed                                                 202




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                               SEMIANNUAL REPORT TO CONGRESS

                                           35
        The contents of the March 2004 Semiannual Report to
        Congress comply with the requirements of the Inspector
        General Act of 1978, as amended. If you have any
        suggestions for making the Report more responsive, please
        complete this feedback sheet and return it to:


        United States Department of Energy
        Office of Inspector General (IG-1)
        Washington, D.C. 20585

        ATTN: Jacqueline M. Becker



        Name:

        Daytime telephone number:

        Comments/Suggestions/Feedback:
        (Please attach additional sheets of needed)




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL                       SEMIANNUAL REPORT TO CONGRESS

                                      36
